                         STATEMENT OF ALLISON C. LERNER

                                  INSPECTOR GENERAL

                           NATIONAL SCIENCE FOUNDATION

        Before the House Commerce, Justice, Science Appropriations Subcommittee

Mr. Chairman and Members of the Subcommittee, I appreciate this opportunity to discuss the
Office of Inspector General’s (OIG) work to promote the efficiency and effectiveness of the
National Science Foundation’s (NSF) programs and operations and to safeguard their integrity.
My office is committed to providing rigorous, independent oversight of NSF, and I welcome the
chance to discuss some of the top management challenges facing the Foundation we have
identified, as well as some reviews our office is conducting of NSF’s operational expenses.

Background

NSF is the funding source for approximately 20 percent of all federally supported basic research
in science and engineering conducted by the nation’s colleges and universities. In many areas,
such as mathematics and computer science, NSF is the major source of federal backing. The
Foundation funds approximately 10,000 new awards each year, thereby fulfilling its mission to
promote the progress of science. Proposals for funding are assessed by panels of experts as part
of NSF’s merit review process. Awards are made primarily as grants, with some large
cooperative agreements and contracts, and go to individuals and small groups of investigators, as
well as to research centers and facilities where scientists, engineers, and students undertake
research projects. The Foundation also funds major research equipment such as telescopes,
Antarctic research sites, and high-end computer facilities.

In FY 2010, NSF was appropriated approximately $7 billion to carry out the agency’s programs
and operations. In addition, the agency received $3 billion in Recovery Act funds in 2009; as of
February 4, 2011, it has expended approximately $992 million of that amount.

The OIG is an independent entity and reports directly to Congress and the National Science
Board. Our mission is to conduct independent audits and investigations of National Science
Foundation programs and operations and to recommend policies and corrective actions to
promote effectiveness and efficiency and prevent and detect waste, fraud, and abuse. Consistent
with our statutory mandate, the OIG has an oversight role and does not determine policy or
engage in management activities involving the Foundation or program operations. Thus, my
office is not responsible for managing any NSF programs, nor do we attempt to assess the
scientific merit of research funded by the Foundation.

The OIG has two main components: the Office of Audit and the Office of Investigations. The
Office of Audit is responsible for the annual audits of NSF’s financial statements and the annual
review of information system security. The office also conducts financial and compliance audits
of grants, contracts, and cooperative agreements funded by NSF. Further, we monitor
management functions that may pose significant financial or programmatic risks. In determining
                                                1
priorities, we consider the results of prior audits and consult with the Foundation’s senior
management, the National Science Board and Congress, and with the Office of Management and
Budget and members of the research community supported by the Foundation. In selecting areas
for audit, we assess factors such as the risk involved in the activity, the potential for monetary
recovery for the government, and the potential for the greatest substantive benefit for NSF.

The Office of Investigations is responsible for investigating possible wrongdoing involving NSF
programs and operations, agency personnel, and organizations or individuals who submit
proposals to, receive awards from, or conduct business with NSF. We focus our investigative
resources on the most serious cases, as measured by such factors as the amount of money
involved, the seriousness of the alleged criminal, civil or ethical violations, and the strength of
the evidence. When appropriate, the results of these investigations are referred to the
Department of Justice for possible criminal prosecution or civil litigation, or to NSF for
administrative resolution.

NSF Top Management Challenges

In accordance with the Reports Consolidation Act of 2000, each year the OIG identifies what it
considers to be the most serious management and performance challenges facing NSF. The top
management challenges are areas that reflect fundamental program risk and are likely to require
NSF’s attention for years to come. Since the agency’s primary mission activity is accomplished
through funding external awardees, the success of NSF’s overall mission and the achievement of
its goals are largely dependent on effective grant and contract administration. Accordingly, my
testimony will focus on two of the six top management challenges facing NSF in FY 2011:
improving grant administration and strengthening contract administration.

Improving Grant Administration

In 2010, NSF funded more than 55,000 active awards involving over 2,100 institutions. Many of
these awards were funded all or in part with Recovery Act monies. In light of the fact that most
of those awards are made as grants, it is essential that the Foundation’s grants management
processes be robust enough to ensure the highest level of accountability and stewardship in its
external awards portfolio. In particular, those processes should enable the agency to engage in
effective oversight throughout the lifecycle of an award.
Previous OIG audits of NSF’s operations have found that the Foundation needs to improve its
oversight of awardees’ financial accountability, programmatic performance, and compliance
with applicable federal and NSF requirements. Over time, NSF has worked to address those
concerns. Among other things, in 2004 it commenced an Award Monitoring and Business
Assistance Program (AMBAP) designed to provide advanced monitoring activities to ensure that
awardee institutions possess adequate policies, processes and systems to manage their NSF
awards. Through this program, NSF assesses its awardees’ capacity to administer NSF-issued
awards in compliance with federal regulations and evaluates awardee performance in specific
high-risk award administration areas. Since many institutions receive more than one award, the
assurance that comes from the advanced monitoring activities is intended to increase the
likelihood that the awardees will effectively administer all NSF-issued awards. Activities



                                                 2
conducted under this advanced monitoring program include desk reviews, site visits and, for
large facilities, business system reviews.

As designed, this program provides NSF with three different ways of ensuring strong oversight.
In practice, though, the program’s effect is limited: in 2010, only a fraction of the institutions
receiving NSF funding (approximately 7 percent) received an AMBAP desk review or site visit,
or a business system review. In addition, in FY 2010 NSF performed 20 percent fewer site visits
than it conducted in FY 2009 -- 24 instead of 30. NSF indicated that this decrease was due to
staffing constraints. While it should be noted that NSF did increase the number of desk reviews
it conducted in 2010 (up to 120 from 110 in 2009), site visits provide the agency with
significantly more information that it needs to oversee awards. In this time of increased concern
about accountability in federal programs, it will be a continuing challenge for the agency to find
new and cost-effective ways to ensure that recipients, especially high risk ones, are
accomplishing their goals and expending their federal funds in compliance with grant terms and
conditions. If the Foundation’s budget continues to grow, the resulting increase in awards to
monitor will compound this challenge.

OIG also has an important oversight role, but given the breadth of our mission, we can only
review a small number of awards each year. We are currently developing a data analytic
capacity and improved forensic financial skills that should enable us to better identify awards
with the most risk and thus more effectively leverage our limited staff resources. As we refine
our approach, we will share our techniques with NSF management so it can utilize them to
enhance its oversight capability. We are also expanding our outreach to NSF and the research
community to ensure that agency staff and awardees understand the rules that apply to them.
Finally, we are continuing to focus efforts on proactive reviews that help us identify grant fraud
that might otherwise go undetected and deter fraudulent behavior.

Strengthening Contract Management

In addition to grant administration, we have devoted considerable attention to contract
administration at NSF -- a long-standing management challenge for the Foundation. In recent
years, we have focused on the agency’s efforts to manage and re-compete its largest contract --
that for the operation of its Antarctic research sites. In addition, we have placed particular
emphasis on the agency’s management of cost-reimbursement contracts. We have focused on
this area because of the risk associated with this type of contract, the substantial amount of
money NSF expends annually on contracts of this type, and the significant deficiency in the
monitoring of cost reimbursement contracts cited in the Foundation’s FY 2009 and 2010
financial statement audits.

NSF obligated approximately $422 million for contracts in FY 2010. Of that amount, two-thirds
(or $283 million) was obligated for cost reimbursement contracts. Cost reimbursement contracts
are considered high-risk because of the potential for cost escalation and because the contractor’s
costs for performance are paid regardless of whether the work is completed. Compounding the
risk, of the amounts NSF obligated for cost reimbursement contracts in 2010, over 70 percent (or
$204 million) was on contracts that permit advance payments to three of NSF’s largest
contractors.


                                                 3
Advance payments increase NSF’s risk because the Foundation pays contractors before they
incur costs. The Foundation’s risk is further increased if it approves advance payments to
contractors without knowing if they have adequate accounting systems or approved disclosure
statements explaining their accounting practices and whether costs will be treated as direct or
indirect. Of the three contractors that receive advance payments, none has an approved
disclosure statement. As a result, NSF does not have an agreement with the contractors as to
how they will classify and charge direct and indirect costs. In addition, only one contractor has
an accounting system that has been deemed adequate recently by Defense Contract Audit
Agency (DCAA) auditors. When contractors do not have adequate accounting systems, NSF
lacks assurance that costs on its cost reimbursement contracts are being properly accumulated
and billed. Given the amount of money it expends on these contracts, the risk of fraud, waste,
and abuse by NSF contractors will continue to be high until NSF implements fully adequate cost
surveillance procedures.

The agency has made some progress on improving contract management. It has developed
policies and procedures for cost-reimbursement contracts, although they were implemented too
late for their effectiveness to be assessed as part of the 2010 financial statement audit. It has also
recently hired a new executive to provide leadership over the contracting staff. Finally, it has
entered into an agreement with DCAA whereby DCAA will provide much-needed audits of
agency contracts, including proposals for the Antarctic logistics contract. While these are
important steps, the risks presented in this area remain significant, and contract management will
likely continue to be a challenge to the agency for some time.

Controls over Contingency Funds

NSF requires contingency estimates in the budgets of large Major Research Equipment and
Facilities Construction projects in an effort to ensure that actual costs do not exceed planned
costs. The approved budgets for these projects serve as the basis upon which awardees can draw
down funds over the course of an award. Control of contingencies in these budgets is an
emerging challenge for the Foundation.

In two recent audits of cooperative agreement proposals for large construction projects, DCAA
found that the awardees’ budgets contained more than $169 million of unallowable contingency
costs. These costs comprised 25 percent of the combined award amounts, which totaled $684
million. It is significant to note that $55 million, or one-third of the $169 million in
contingencies consisted of funds awarded under the Recovery Act.

In both of the audits cited above, the auditors were further concerned by the lack of controls over
the contingency funds. Although NSF allows contingency funds to be held by the awardees’
project officers for allocation during the construction phase, DCAA found that the awardees
could draw down the contingency funds at any point in the project just as they would normal
funds, and that no barriers existed to prevent the funds from being drawn down in advance and
used for purposes other than contingencies. As a result, there is an increased risk of fraud or
misuse of these funds.

We recommended that NSF require the awardees to remove unallowable contingencies from
their proposed budgets and that NSF stop its current practice of allowing awardees to manage

                                                  4
contingency funding. We recognize that the identification of funds needed for contingencies is
an important part of project management; however, we are concerned by the risk associated with
the approach NSF is taking. To protect federal funds set aside for contingencies, we have
therefore recommended that NSF, not awardees, control the release of contingency payments for
unforeseen events. NSF should implement procedures so that it controls contingency funds and
does not release them until the awardee has demonstrated to NSF that the funds are needed to
meet a project requirement.

We are currently working with NSF to resolve the contingency-related findings. Because of the
large dollar amounts associated with contingencies in NSF awards, the risk we see posed by the
agency’s current process of funding these costs, and the complexity of the issue, we have started
additional audit work that focuses broadly on NSF’s use of contingencies in its awards.

NSF Expenses for Internal Operations
While much of my office’s effort focuses on funds NSF provides to third parties in grants,
cooperative agreements and contracts, we also examine how NSF spends money internally for its
own operations and activities. In light of the current economic climate, it is essential that these
expenses be reviewed to identify opportunities for cost savings or funds that can be put to better
use within the Foundation. In this vein, we recently examined expenditures in two areas,
refreshments provided to individuals participating in meetings at NSF and travel expenses under
NSF’s Independent Research and Development program -- both of which might yield cost
savings with additional oversight and control.

Refreshment Purchases for Meetings
The Federal Travel Regulation states that agencies may provide light refreshments to agency
employees attending an official conference. NSF’s Office of General Counsel advises that
meetings of review panels, advisory committees and Committees of Visitors fall within the
definition of a conference. Our recent review of charges on NSF purchase cards for refreshments
for merit review panelists and others attending meetings at NSF identified nearly $500,000 in
food-related payments in both 2008 and 2009. NSF pays for these refreshments out of program
funds, in addition to the flat-rate or per diem compensation it provides to attendees to cover their
expenses. The flat rate compensation is $480 for each meeting day and $280 for each travel day
to cover an honorarium, hotel, local travel, and all meals. The per diem rate includes $71 for
meals and incidentals, in addition to lodging and travel expenses.
We examined expenditures associated with the substantial flow of food and beverages daily into
NSF from a wide variety of vendors to determine the potential for fraud, waste, and abuse. Of
the 110 purchases we reviewed, one fourth exhibited at least one typical fraud indicator,
including late pre-approvals, inconsistent pre-approvals and invoices, late payment of invoices,
handwritten changes to otherwise printed invoices, white-out on invoices, or late changes to
already placed orders. In addition, we identified an NSF staff member who caused a relative’s
company to receive the refreshment orders for three review panel meetings, violating conflict of
interests rules.
Pursuant to GSA guidance, prices paid for refreshments must be considered fair and reasonable,
and purchases must be equitably distributed among suppliers. We found that there is no
                                                 5
Foundation-level oversight or coordination of refreshment purchases, no general definition of
what is “reasonable” for refreshment purchases, no uniform guidance to ensure consistent
refreshment purchase decision-making within and across NSF divisions, and no purchase card
training specific to refreshment purchases. As a result, refreshment purchase practices vary
widely across the Foundation. While the majority of NSF organizations purchase food for panels
and other activities from vendors in the area near NSF in Arlington, nearly a quarter of such
purchases were made from more distant vendors, which sometimes added additional delivery
charges. Other situations our analysis revealed included: wide ranges in per-person prices paid
for similar products; instances in which purchases were made of substantial food that could be
viewed as a meal and not light refreshments; cases where offices purchased virtually all
refreshments from a single vendor; and some purchases that appeared to directly contravene
GSA and NSF guidance.
Although we ultimately did not find fraud in the transactions we examined, the large number of
indicators and divergent or inconsistent practices we identified strongly suggests that NSF would
benefit from a more centralized purchasing process.
We recommended that NSF assess whether it is a prudent use of federal funds to spend nearly a
half-million dollars a year to provide extensive mid-morning and mid-afternoon refreshments for
meeting attendees, in addition to the compensation they are already receiving for meals. If NSF
chooses to continue providing food, we recommended that the agency centralize its provision of
refreshments to improve control over the process and ensure it is carried out reasonably,
consistently, and responsibly. A consolidated process could result in substantial savings, if NSF
chooses to continue providing refreshments.
Travel Expenses under NSF’s Independent Research/Development Program
NSF’s Independent Research/Development (IRD) program provides an important benefit to
qualified agency employees, allowing them to stay involved in their research while working at
NSF. The program does this, in part, by providing travel funds to permit Visiting Scientists,
Engineers and Educators (VSEEs) and Intergovernmental Personnel Act appointees (IPAs) to
travel to and from their home institutions, participate in activities at other institutions, and attend
domestic and international conferences. It also permits other employees to engage in active
research programs.

IRD participants must submit plans describing, among other things, the work they will be
conducting and its estimated costs. This information is required so that NSF officials will be
able to identify possible conflicts of interests that could result from the IRD work, and so they
can ensure that actual IRD travel is consistent with approved IRD plans.

Investigative staff in my office recently reviewed the use of IRD travel by VSEEs and IPAs at
NSF in an effort to assess the potential for fraud within that program. We found that there is no
centralized means to review IRD budgets, and therefore no convenient way for NSF managers to
compare actual IRD expenditures to plans or budgets, or assess the use of IRD travel across the
Foundation’s various directorates or divisions. In fact, we found that NSF could not tell, without
substantial effort, how much it spent annually on IRD travel, or how much time NSF IPAs and
VSEEs spent on such work. Further, in the sample we examined we found that some participants
used IRD funds for trips and conferences that were not referenced in their plans, some took more

                                                   6
trips or longer trips than proposed, and others failed to provide sufficient detail on conference
travel. Some of the individuals in our sample used IRD funds for activities not related to the IRD
plan, while others spent more on travel than proposed.

Because of the significant internal control issues identified in the sample we examined, we are
currently conducting an audit of the IRD program to evaluate the effectiveness of NSF’s
oversight of the IRD program. In addition, to ensure that IRD funds are appropriately expended
and to improve the efficiency and oversight of the IRD program, we recommended that NSF
examine all IRD plans and associated travel records for the past year to determine if the travel
was IRD related and within the scope of the plan, and whether the actual travel costs are
consistent with what was proposed. In response, NSF’s Office of the Director asked the Office
of Information and Resource Management to form a task group charged with strengthening
oversight and accountability of the IRD program.

Conclusion

Scientific research and discovery are the building blocks of the technological advances that are
essential for our nation’s economy to grow and to meet the challenges of the future, and NSF has
an essential role to play in promoting scientific discovery. For the agency to achieve its mission,
NSF must spend its research funds in the most effective and efficient manner while maintaining
the highest level of accountability over taxpayer dollars. My office will continue to utilize the
full range of our audit and investigative resources to exercise robust oversight of NSF’s
stewardship of federal funds and to safeguard the integrity of the Foundation’s operations.




                                                 7
